                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                         June 2011 Update



  Business Loan Programs                                              trial of one count of conspiracy, one count of making
                                                                      false statements and aiding and abetting. The owner had
  Alabama Man Convicted on False Statements                           obtained an SBA-guaranteed loan in the amount of
  On June 9, 2011, an Alabama man was sentenced in the                $417,000 through a finance company to perform
  U.S. District Court for the Northern District of Alabama            construction and renovation work for leased space and to
  to 2 weekends in jail, 12 months home detention, 5 years            purchase equipment and inventory for his new restaurant
  probation, and 100 hours of community service. He was               business. On his loan application, the subject certified
  also ordered to pay restitution of $120,486.66 and a                the cost of the construction work to be $295,000 even
  special assessment fee of $100. The subject, who was                though he had already entered into an agreement with a
  the owner of a gas station in Cullman, Alabama, had pled            construction company for the work to be performed for
  guilty to one count of making false statements after                $145,000. The subject conspired with the construction
  selling his business to another person utilizing an SBA             company to falsely represent the total cost of the project
  loan of $76,000. The investigation disclosed that the               as $295,000 in order to receive additional funds for his
  seller presented false tax information to the SBA and the           personal use.
  purchaser to artificially inflate the annual sales revenues
  of the gas station.                                                 Material Deficiencies Identified in Four 7(a) Recovery
                                                                      Act Loans Resulted in $3.2 Million of Questioned Costs
  Kansas Construction Company and Others Indicted                     On June 29, 2011, the OIG issued a report on the results
  On June 15, 2011, in the District of Kansas, a                      of a review of purchased 7(a) Recovery Act loans. The
  construction company and four individuals were indicted             objective of the audit was to determine whether
  for their alleged participation in a scheme to falsely              purchased 7(a) Recovery Act loans were originated,
  obtain contracts through the SBA’s Service-Disabled                 closed, and purchased in accordance with SBA’s rules
  Veteran-Owned Small Business (SDVOSB) set aside                     and regulations, and commercially prudent lending
  program. The indictment charges each defendant with                 standards. The four loans were part of a judgmental
  multiple counts relating to conspiracy, major program               sample of Recovery Act loans, approved for $500,000 or
  fraud, wire fraud, money laundering, and making false               more, that had been purchased as of September 30, 2010.
  statements. The indictment alleges that the individuals             The audit found that the lenders did not originate and
  engaged in a series of acts in order to misrepresent the            close the four 7(a) Recovery Act loans in accordance
  relationship between the construction company and a                 with established guidelines. Further, SBA loan officers
  second firm and to falsely represent the construction               did not identify deficiencies in three of the loans during
  company to be a certified SDVOSB. This is a joint                   their purchase reviews. The OIG recommended that the
  investigation with the Defense Criminal Investigative               SBA seek recovery of approximately $3.2 million.
  Service (DCIS), the General Services Administration
  OIG, and the Department of Veterans Affairs OIG.                    Disaster Loans
  Maryland Restaurant Owner Convicted                                 Louisiana Couple Pleads Guilty
  On June 17, 2011, in the U.S. District Court for the                On June 9, 2011, a husband and wife pled guilty in the
  District of Maryland, the president and owner of a                  Western District of Louisiana to one count of conspiracy
  Korean restaurant in Lusby, Maryland, was sentenced to              to commit wire fraud. The charges involve an SBA loan
  30 months in prison, 3 years supervised release,                    of $126,300 that another couple received in order to
  restitution of $150,000, and a $100 special assessment              rebuild and repair their residence, which had been
  fee. The subject was previously found guilty in a jury              damaged by Hurricane Ike. The couple gave power of


Monthly Update on Activities of the SBA Office of Inspector General
attorney to a financial group, owned by the wife, for the             was a result of her guilty plea to three counts of theft of
purpose of negotiating and finalizing their SBA loan.                 government funds. The investigation disclosed that she
The husband was the manager of the company                            provided false statements on her applications for disaster
responsible for the repairs to the borrowers’ residence.              assistance related to damage to her primary residence
A review of invoices, cancelled checks, and paid receipts             from Hurricane Katrina. Although she owned the
submitted to the SBA by the wife in support of loan                   property that she claimed as her primary residence, the
disbursement determined that the items listed on the                  house was considered unlivable prior to the storm. As a
invoices had never been purchased and the cancelled                   result of her representations, she received $219,000 in
checks were fraudulent.                                               disaster loan funds from the SBA, a $150,000 grant from
                                                                      the HUD Road Home Program, and approximately
Mississippi Man Pleads to Theft of Public Funds                       $26,676 from FEMA. This was a joint investigation with
On June 14, 2011, a Mississippi man pled guilty in                    HUD OIG, DHS OIG, and the Federal Bureau of
U.S. District Court, Southern District of Mississippi                 Investigation (FBI).
to one count of theft of public funds. The investigation
disclosed that on his SBA loan application he                         Louisiana Man Charged with Theft of Funds
misrepresented the location of his primary residence,                 On June 21, 2011, a Louisiana man was charged in a
which he claimed had been damaged by Hurricane                        criminal information with one count of theft of
Katrina. He was approved for a $144,900 SBA disaster                  government funds in U.S. District Court for the Eastern
home loan, of which $121,300 was disbursed. As a                      District of Louisiana. The information alleges he
result of this investigation, the subject repaid the                  submitted fraudulent documents to the SBA for repairs to
remaining balance of his SBA loan. The subject had also               his rental properties damaged by Hurricane Katrina. As a
made the same claims when completing applications for                 result of his misrepresentations, he received multiple loan
Federal Emergency Management Agency (FEMA) and                        disbursements totaling $103,100 from the SBA. This is a
Mississippi Development Authority grant benefits. This                joint investigation with the HUD OIG.
is a joint investigation with the U.S. Housing and Urban
Development (HUD) OIG, U.S. Department of                             Texas Property Manager Indicted
Homeland Security (DHS) OIG, and the Mississippi                      On June 29, 2011, in the Southern District of Texas, a
State Auditor’s Office.                                               property manager was indicted on one count of
                                                                      conspiracy and two counts of fraud in connection with a
Woman Sentenced for False Statements                                  major disaster. The charges relate to the property
On June 15, 2011, a Louisiana woman was sentenced in                  manager’s claim that Hurricane Ike damaged a rental
U.S. District Court for the Middle District of Louisiana              property, which the investigation alleges had been
to 36 months probation, immediate restitution to the SBA              damaged by an intentional fire prior to Hurricane Ike.
of $46,300, and a $100 special assessment fee. She                    The owner of the property and the owner’s brother were
previously pled guilty to one count of false statements.              previously indicted for their alleged participation in a
Following Hurricane Katrina, the subject applied for and              false invoice scheme. The owner of the property, a real
received an SBA loan to rebuild her home in Baton                     estate broker and Houston area bank director, was
Rouge, Louisiana. She also applied for and received                   approved for $999,700 in home and business disaster
emergency assistance from FEMA and the Louisiana                      loans. The business loan was approved to repair or
Road Home Program. The investigation revealed that the                replace more than 40 rental properties allegedly damaged
woman created fraudulent receipts and documents that                  by Hurricane Ike. The investigation alleges that the
reflected repair expenses she had supposedly sustained as             owner submitted to the SBA inflated and false invoices
a result of the storm, but which she had not actually                 for repairs to his residence and rental properties. The
incurred. Based on the fraudulent documents, the SBA                  second brother’s charges relate to his verifying to the
increased her loan from $85,400 to $108,000. This was a               SBA $680,000 in fictitious repairs that he claimed were
joint investigation with the HUD OIG, DHS OIG, and                    completed by his company. This case was referred to the
the U.S. Postal Service OIG.                                          OIG by the SBA Processing and Disbursement Center,
                                                                      Fort Worth, TX and is a joint investigation with the DHS
Louisiana Woman Forfeits Home at Sentencing                           OIG.
On June 16, 2011, a Louisiana woman appeared in U.S.
District Court for the Eastern District of Louisiana and              Release of Collateral by the Disaster Loan Servicing
was sentenced to 60 months probation, restitution of                  Centers
$351,098.69, and a $300 special assessment fee. The                   On June 3, 2011, the OIG issued a report on the results of
court also ordered the immediate forfeiture of a single-              a review of the release of collateral by SBA Disaster
family residence owned by the subject. The sentencing                 Loan Servicing Centers in Birmingham, Alabama and El



Update on the Activities of the SBA Office of Inspector General   2                                        June 2011
Paso, Texas. The objective of the audit was to determine              million monetary judgment and to call for forfeiture, as
whether the servicing centers were appropriately and                  proceeds of the alleged fraud, a number of assets
timely releasing collateral on disaster loans.                        including $8.1 million previously seized from bank
                                                                      accounts and real property. The indictment alleges that
An OIG review of a statistical sample of 120 collateral               the subjects devised a scheme whereby they created a
release decisions made on active loans showed that the                company for the purpose of obtaining a $100 million
servicing centers did not consistently make appropriate               small business set-aside contract with the Department of
decisions to release collateral on these loans. The review            Defense (DoD). The subjects used a nominee owner to
found that 55, or approximately 46 percent, of the                    create the appearance that their company was not
collateral release decisions, for collective property values          affiliated with a consultant firm that they controlled.
of at least $3.1 million, were inappropriate. As a result,            Their firm had been the incumbent contractor on a
the remaining collateral for some loans was not sufficient            previous DoD contract. The subjects allegedly submitted
to protect the Agency's interests because the loan balance            false and misleading information concerning the
exceeded the value of the property. The inappropriate                 relationship between the two companies after the
collateral release decisions occurred because the Agency              affiliation was challenged in the course of a size protest
did not perform a full collateral analysis. A full analysis           submitted to the SBA Office of Government Contracting.
would have included obtaining an appraisal or other                   This is a joint investigation with the DCIS.
acceptable property valuation, and evaluating whether
the retained collateral value was sufficient in relation to           Former Army Contracting Officials Indicted in Texas
the outstanding loan balance. As a result of these                    On June 22, 2011, two former high-level contracting
inappropriate collateral releases, the OIG projects that at           officials with the U.S. Army were indicted in San
least $3.9 million of loan balances could be insufficiently           Antonio, Texas. The seven-count indictment charges the
protected, exposing the Agency to a higher risk of loss.              husband and wife with one count of conspiracy to
                                                                      defraud the U.S. and four counts of filing false tax
To assess the timeliness of collateral releases, the OIG              returns and aiding and abetting. The wife is also charged
reviewed a statistical sample of paid-in-full loans. The              with two additional counts of making false statements.
OIG found that collateral releases for paid-in-full                   These allegations relate to the couple’s acceptance and
loans was not always timely; however, the impact to the               concealment of payments totaling over $100,000, from
Agency was not significant.                                           an SBA 8(a) participant firm based in Chicago, Illinois,
                                                                      to which they awarded multiple construction contracts in
The audit also disclosed five other matters which                     their official capacities. The 8(a) firm was not revealed
merit attention. For some collateral releases, the SBA                in this indictment, but according to the indictment, the
did not receive the net proceeds from the sale of                     couple conspired to evade administrative and criminal
damaged properties, proceeds from these sales were                    inquiry by directing the 8(a) firm to convey its payments
not always applied to the correct loan, some damaged                  through complex financial transactions involving their
properties were sold for less than fair market value,                 relatives and structured cash deposits below $10,000 into
justifications for some collateral releases were                      joint accounts held with relatives. These surreptitious
misleading, and insurance coverage on the remaining                   transactions were specifically designed to conceal the
collateral was not always verified as required.                       true source and purpose of the funds and to circumvent
                                                                      the reporting requirements of financial institutions. The
The OIG made six recommendations to improve the                       conspiracy scheme also included concealing the income
collateral release process. During the audit, the servicing           from the Internal Revenue Service (IRS) on the couple’s
centers began implementing procedures to correct some                 tax returns from 2002 to 2008, and from the Army’s
of the deficiencies identified.                                       ethics officials on the wife’s annual Confidential
                                                                      Financial Disclosure Reports (OGE Forms 450). This is
Government Contracting & Business                                     a joint investigation with the Army Criminal
                                                                      Investigation Division (Army CID), the IRS Criminal
Development                                                           Investigation Division (CID), the FBI, DCIS, and the
                                                                      Department of Justice Antirust and Tax Divisions.
Florida Men Indicted on $100 Million Contract Scheme
On June 21, 2011, two men were indicted in U.S. District              Virginia 8(a) Owner Indicted on Conspiracy, Bribery,
Court for the Middle District of Florida on one count of              and Extortion Charges
conspiracy and five counts of wire fraud. The indictment              On June 23, 2011, the owner of a system and information
also contains forfeiture allegations that notified the                services corporation was indicted in the Eastern District
defendants that the United States intends to seek a $100              of Virginia on one count of conspiracy, one count of



Update on the Activities of the SBA Office of Inspector General   3                                       June 2011
bribery, one count of procurement of citizenship or                   could also result in incorrect SDB reporting in the FY
naturalization unlawfully, one count of fraud and misuse              2010 Small Business Goaling Report.
of Visas, permits, and other documents, one count of
false statements, one count of extortion by blackmail, and            The OIG recommended that the SBA establish
three counts of aiding and abetting. The owner’s                      procedures to discontinue the practice of inappropriately
company is an 8(a) certified firm and has received over               obligating funds on contracts in anticipation of future
$3 million in contracts set aside for 8(a) certified                  needs, de-obligate inappropriately obligated funds, and
businesses. The indictment alleges that the owner                     develop and provide training to agency personnel on the
obtained falsified U.S. citizenship documents from a                  bona fide needs rule. We also recommended that the
DHS employee and used the documents as a basis for his                SBA determine whether it violated the ADA and take
claim that he was a U.S. citizen to obtain a Department               appropriate action if a violation exists, review all
of Defense security clearance. The subject also used the              ongoing SBA IDIQ contracts to ensure that task orders
falsified U.S. citizenship documents as a basis for his               are being issued in accordance with government
claim that he was a U.S. citizen on his firm’s 8(a)                   regulations, and based on the IDIQ contracts review
application. This is a joint investigation with the DHS               results, determine whether administrative actions are
OIG, Immigration and Customs Enforcement –                            warranted against the contracting officers. Finally, we
Homeland Security Investigations, Department of State -               recommended that the SBA revise FPDS-NG data for the
Diplomatic Security Service, and the Department of                    IDIQ contract to ensure that inappropriately obligated
Labor OIG.                                                            funds are not included in the FY 2010 Small Business
                                                                      Goaling Report.
Agency Management

SBA's Funding of Information Technology Contracts                               Peggy E. Gustafson, Inspector General
Awarded to Isika Technologies, Inc
On June 2, 2011, the OIG issued a report on the results                      The OIG has established an e-mail address,
from an audit of the SBA’s procurement of information                    oig@sba.gov that we encourage the public to use to
technology (IT) hardware and software through ISIKA                       communicate with our office. We welcome your
Technologies, Inc. (iTechnologies). This was the second                    comments concerning this update or other OIG
in a series of reports related to this ongoing audit.                    publications. To obtain copies of these documents
                                                                                          please contact:
The OIG found that SBA did not properly fund an
Indefinite Delivery/Indefinite Quantity (IDIQ) contract                                       SBA OIG
because it obligated $3.151 million during FY 2009 and                              409 Third Street SW, 7th Floor
FY 2010 by issuing contract modifications without                                      Washington, DC 20416
identifying specific requirements for IT hardware and                                   E-mail: oig@sba.gov
software. Because SBA did not use these obligated                                 Telephone number (202) 205-6586
annual funds to purchase IT hardware or software during                             FAX number (202) 205-7382
FY 2009 and FY 2010, the agency inappropriately
obligated annual funds that otherwise would not have                    Many OIG reports can be found on the OIG’s website
been available for use in a subsequent fiscal year.                       http://www.sba.gov/office-of-inspector-general
According to SBA personnel, this occurred because
contracting officers did not review contract modification               If you are aware of suspected waste, fraud, or abuse in
details prior to issuance and cited fiscal year-end                           any SBA program, please report it online at
constraints as the rationale for not performing a review.                http://www.sba.gov/office-of-inspector-general/2662
As a result, the SBA: 1) violated the bona fide needs rule
relating to its FY 2009 and FY 2010 annual                               Or call the OIG Hotline toll-free, at (800) 767-0385
appropriations; 2) risked violating the Anti-Deficiency
Act (ADA) by obligating expired FY 2010 annual funds
during FY 2011 with no assurance that the agency had
funds available to cover these inappropriate expenditures;
and 3) reported the inappropriate obligation of funds to
the Federal Procurement Data System-Next Generation
(FPDS-NG), which resulted in an overstatement of
obligations to Small Disadvantaged Businesses (SDBs)
in the FY 2009 Small Business Goaling Report, which



Update on the Activities of the SBA Office of Inspector General   4                                       June 2011
